                    HUMAN CAPITAL PLANNING IN SBA’S
                     OFFICE OF FINANCIAL ASSISTANCE

                         AUDIT REPORT NUMBER 6-13

                                 MARCH 2, 2006




This report may contain proprietary information subject to the provisions of 18
USC § 1905 and must not be released to the public or another agency without
permission of the Office of Inspector General.
                              U.S. Small Business Administration
                                  Office of Inspector General
                                    Washington, D.C. 20416



                                                             MANAGEMENT ADVISORY
                                                                   REPORT
                                                            Issue Date: March 2, 2006
                                                            Report Number: 6-13

TO:                   James E. Rivera
                      Associate Administrator for Financial Assistance

                      /S/ original signed
FROM:                 Robert G. Seabrooks
                      Assistant Inspector General for Auditing

SUBJECT:              Human Capital Planning in the Office of Financial Assistance


        This memorandum is to notify you that the Office of Inspector General (OIG) has
completed its survey of human capital planning in the Office of Financial Assistance (OFA) and
has decided not to proceed with an audit at this time. However, we believe it would be helpful to
provide a summary of the OIG’s observations and concerns regarding OFA’s human capital
planning for your consideration during the current transformation process and the significant
changes in OFA’s operations, including the potential outsourcing of SBA’s disaster loan
servicing operations (A-76 competition).

        Our objectives in conducting the survey were to (1) assess whether OFA has determined
the skills, competencies and staffing levels it needs to achieve its current and projected
programmatic results; (2) determine whether OFA developed strategies to address the gaps
identified, and whether OFA has taken appropriate action to build the capability to support its
workforce planning strategies and staffing plans; and (3) assess whether OFA periodically
monitors and reevaluates its human capital needs and goals in light of SBA’s changing strategic
and program goals, transformation strategy and human capital plan. The OIG chose OFA for
special consideration because of its relative size in the Agency, in terms of staffing and program
funding, and because of the vital role it plays within the Agency in meeting its overall mission.
A draft staffing plan provided by OFA, dated July 2005, represents that OFA had 302 total staff,
including 56 contractor staff. The plan also shows that OFA was servicing 132,000 disaster
home and business loans with a total outstanding balance of $3.5 billion as of July 2005. SBA’s
Performance and Accountability Report for FY 2005 shows that OFA funded 100,255 loans
(consisting of 7(a), 504 and Micro Loans) totaling approximately $19 billion.
        The observations and concerns set forth in this memorandum are based on reviews of the
information available regarding the competencies and staffing levels necessary for OFA to carry
out its work and to achieve its current and projected programmatic goals. The information we
examined included SBA’s transformation and human capital plans and OFA’s draft staffing plan.
Additionally, we interviewed the Associate Administrator for Financial Assistance, the Associate
Deputy Administrator (ADA) for Capital Access, the directors of the loan processing and
servicing centers in Sacramento, Little Rock and Fresno, selected staff members in the centers,
the team leader of OFA’s systems modernization and financial systems support program, and the
Assistant Administrator for Financial Program Operations. Fieldwork was performed in
Washington, DC during December 2005.

                                OBSERVATIONS AND CONCERNS

       Our review identified several significant issues that warrant attention. Our overarching
concern is that OFA is not operating with a current staffing plan or a documented training plan to
ensure that its staff has, retains and builds the skills and competencies needed for OFA to
achieve its current and future goals. We also observed that OFA does not routinely monitor or
measure quality assurance in the operation of its loan processing and servicing centers. Lastly,
we are concerned that the current ADA for Capital Access has not taken action to ensure that
OFA operates with an updated and approved staffing plan.

OFA does not have a current staffing plan

        Although OFA provided us a staffing plan prepared in July 2005, the staffing plan was
accompanied with the following written and significant caveats: “the plan was prepared in July
of this year (2005) at the request of the then Acting ADA for Capital Access. The plan was
prepared as a pre-decisional document for approval for the then Acting ADA. The plan has not
been approved either by the present ADA and it may or may not reflect his views and plans. The
Compensation and Benefits Committee has also not approved (sic).” These caveats were verbally
repeated to us by OFA management, leading us to conclude that OFA currently has no
operational staffing plan despite the extensive work put into the apparently obsolete staffing plan
we reviewed.

        Without a documented staffing plan, staffing currently appears to be stopgap and not part
of an organized effort to ensure that OFA has the right competencies, acquires the right skills, or
develops the right strategies for it to meet its current and future performance goals. In
developing its strategic human capital model, the Government Accountability Office (GAO)
emphasized the importance of agencies developing human capital strategies that include hiring,
training, staff development and performance management plans that can be implemented with
resources that can be expected to be available.1 Although GAO’s human capital planning
principles are meant to apply to entire agencies, they can also be applied to relatively large
organizations within agencies, such as OFA. OFA needs to develop a current staffing plan in
which the human capital required to meet its current and projected programmatic goals is
identified. Mission-critical occupations and competencies also need to be identified and

1
 U.S. General Accounting Office, Key Principles for Effective Strategic Workforce Planning,GAO-04-39
(Washington, D.C., December 2003).



                                                      2
documented in a staffing plan so that information is provided for Agency management to
develop strategies to recruit, develop and retain talent and skills needed to achieve OFA’s current
and future goals. Furthermore, OFA’s staffing plan should be developed in accordance with the
Agency’s human capital plan and transformation plan to ensure that it is appropriately linked.
Finally, the staffing plan should include active input, support and approval from the ADA for
Capital Access.

        Once OFA develops a staffing plan, it should include or be accompanied by a tool in
which OFA periodically monitors and reevaluates its human capital needs and goals. Currently,
OFA management monitors performance of its loan processing and servicing centers using a
spreadsheet that contains various production benchmarks and goals. Using this spreadsheet,
OFA management monitors the numbers of loans processed or serviced (among other measures)
by its various centers. Based on our review of these spreadsheets, however, it was not evident to
us that OFA monitors or measures the quality of the loan processing and servicing functions in
the centers. Quality assurance should be an integral component of the centers’ performance that
is periodically monitored by OFA management.

OFA does not have a training plan to ensure that its staff has and retains the skills and
competencies needed to achieve its goals

        Based on our interviews with OFA management, staff training appears to be conducted in
an ad-hoc, non-transparent manner and is extremely limited due to budgetary constraints. Little
can probably be done to solve the problem of the limited availability of funds available for
training, but this does not preclude the need for an explicit and documented training plan that is
based on competency gaps identified in the staffing plan and anticipates probable workforce
changes likely to result from current OFA initiatives such as ongoing centralization and A-76
competition.

Recommendation:

1.      We recommend that the Associate Administrator for Financial Assistance develop a
current staffing plan and training plan that take into consideration our observations outlined in
this management advisory report.

SBA Management’s Response and OIG’s Evaluation of Management’s Response:

        OFA’s response indicated general agreement with OIG’s observations and concerns
regarding human capital planning in OFA. OFA management stated in its response that it will
develop staffing and training plans incrementally for the areas within the organization where
transformation has been completed and will add them as it continues to further implement its
transformation process. Appropriate timeframes for developing staffing and training plans will
be determined during the audit resolution process. Management’s response is included in its
entirety as Attachment 1.




                                                 3
                                            ****

        The observations included in this memorandum are the conclusions of the OIG Auditing
Division. The recommendation is subject to review, management decision and action by your
office in accordance with existing Agency procedures for audit follow-up and resolution.

      Please provide us your management decision for our recommendation within 30 days.
Your management decision should be recorded on the attached SBA Form 1824,
“Recommendation Action Sheet,” and show your proposed corrective action and target date for
completion.
       Should you or your staff have any questions, please contact Robert G. Hultberg, Director,
Business Development Programs Group at (202) 205-[FOIA Ex. 2].


Attachments




                                               4
                                                            AUDIT




                                                                                                 Altachcart 1
                                                                                                  Page 1 of2
                             U.S. SMALL SUSINESS ADRII NETRATION
                                       \\'/I SIitXGTON,     b.C 204 11




                                                                                 ;j1:;;:,&' d 5
                                                                                 . ' ..---       ;1




    TO:           Robert G. Seabrooks                                                I
                                                                                      .  .-,
                                                                                          .-':
                                                                                          I.,
                                                                                           8



                  f b ! & m t b r G u l d forAudittng
              r  TFoIA ZX, jO                                              3
    PROM      bbjarnes   C;.~YCW
                   A!3mciatc A t l d l i m l b fot Financial      Assistaaca

    SUBJECT:       Human CapM Philing in in OOfEice of Fimmcial Asdstmm.

    We~owl&edptofyoardr;ift~emdadvisoryrcport~youssnt~our
                                                                       (OPA)
    d e w and wnsideralion on F e b ry 13. The Office of Ficial AB&~~IIIX


    OFA agrees with                                          plan for its axganization. A
    pihimy plan was developed m3 shared with tbe Office of Iaspcctor General as part
    of the audit Howeva, as you state in y m memo,the OFA cathues to undergo various
    tm&b&on       processes -we am in the final stages of:
            compl&g the A-76         s of ehe Disaster loan servioing a d o n s that &kt


           6the 504 Kqui& tion and the disMal o d i d a t i o n
    AS each ofthese initiatives art bnplemtnt@ they will have a direot impact 0x1our
    staehng and trainhg needs. We w U develop stafbg and t d h g plans inmmemtdy for
    those m a s where we have compk ted trans-on       and will add to them as we contiwe
    toexpandatlrtraasfannaticman8rwWonprocessw, Aswcdasqwewillgiveamg
'   consi,ddm to your SU&OI~S          available remots.
                                aNi.thin
    Ourovdplanistoimproveollr service&~veryprocesses~~thatwscanbetterm
    ourcusmum. h o r d e r t o ~ l ~ s h ~ , w e h a v e d c v e I o p e d 9 n c v a l u a t i ~ ~ ~ l a t s
    d are   dw        an assessment of om centem. The fist evaluationwas candwted,
    during the week ofJaauary 30 on &e National Ouaranty Purohase C m t a at Hmdan,
    VA. The purpose of this review v 9 s to help us identify human capital requirementsto




               SBA IS An' EQUAL OPPORTUNITI' EhfPLOlrER AND PROI'IDEIZ
                                                        e
                                    r d -a e e e rn:.an p     ~hclnP a-a   tu*
W e j u a t ~ d o i n g a ~ n e a l ~ e n t f o r d o f O F A ' s ~Tbis      ay~.
infimdon will be used to help us arlegorize and identify areas of need. Our p b EIR:
t o i ~ ~ d o l l a r s i n w d e rprovidethistrainingei~on-henin-
                                    tc~
We~~workwiththe~~tofHuman~.taltasceifth~hraintag~~
help film om needs.
We rqqmdak your-hlmestin helpir g us. We will keep you i n f d of our
Pl,sascktus~ifyou~aayAIttberquestim.
                                                                                                                Attachment 2


                                           REPORT DISTRIBUTION



Recipient                                                                                       No. of Copies

Associate Deputy Administrator for Capital Access .....................................1

Associate Deputy Administrator for Management and Administration ........1

Chief Human Capital Officer ........................................................................1

Office of the Chief Financial Officer
Attention: Jeff Brown ...................................................................................1

General Counsel ............................................................................................3

U.S. Government Accountability Office ......................................................2
